IN THE SUPREME COURT OF THE UNITED STATES
No.
CDR John F. Sharpe, USN, Petitioner
V.

United States of America

CERTIFICATE OF SERVICE

I, CDR John F. Sharpe, USN, pro se, herby certify that on this 25th day of
November, 2019, I caused three copies of the Petition for Writ of Certiorari with
three copies each of the two volumes of the separately bound Appendix to be served
by commercial carrier for delivery within !no more than three calendar days, in ac­
cordance with Supreme Court Rules 29.3, .4(a) and .5, on the
Solicitor General of the United States
Room 5616
>
Department of Justice
950 Pennsylvania Ave^, N. W.
Washington, DC 20530-0001
(202) 514-2203
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing istatieancl correct.
r•-

Executed on November 25, 2019.
■H

1l

CDR John F. Sharpe, USN
Pro se / /
13680 jpold Venture Drive
Glenelg, Maryland 21737
(757) 645-1740
(703) 614-9165
john.sharpe@charter.net
john.f.sharpe2.mil@mail.mil

